OIG Investigative Reports, Prepared Table Charter School Officials Indicted
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
U.S. Attorney's Office
Southern District of Texas
News Release
Michael T. Shelby * U.S. Attorney
FOR IMMEDIATE RELEASE:
July 01, 2004
Contact:
John Yembrick
Public Affairs Specialist
P. O. Box 61129 Houston, TX 77208
Phone: 713/567-9388 Fax: 713/718-3389
E-Mail: usatty.txs@usdoj.gov
PREPARED TABLE CHARTER SCHOOL OFFICIALS INDICTED
Contact AUSA: Melissa Annis
Phone: 713/567-9736
(HOUSTON, TX) United States Attorney Michael Shelby announced the indictment of four Prepared Table Charter School officials and employees for their role in a scheme to embezzle millions of dollars in federal funds secured through grants and state programs to the school and laundering the proceeds. Harold W. Wilcox, 52, Louvicy Wilcox, 51, Anthony Mosley, 42, and Roshall Frank, 32, all of Houston, Texas, have been named in various counts in a 26 count indictment returned under seal by a federal grand jury on June 29, 2004, and unsealed today. All four defendants were arrested this morning at their residences by agents of the Federal Bureau of Investigation and appeared in federal court this afternoon before United States Magistrate Judge Calvin Botley.
Following the appearance of the defendants in federal court today, United States Attorney Michael Shelby said, "Today's indictment alleges that the defendants defrauded the taxpayers of Texas and the United States in a deliberate, methodical and significant way. We intend to use every tool federal law provides to protect the nation's treasury from this kind of calculated plunder."
The indictment charges the defendants with embezzling and obtaining by fraud federal and State of Texas money allocated to the Prepared Table Charter School for the educational and nutritional needs of children, during the three years of the schools existence. In July 1998, Harold Wilcox applied to the State of Texas for a charter to run the school and serve as the Chief Administrator and Chairman of the Board of Trustees of Prepared Table Charter School. Wilcox's wife, Louvicy Wilcox, worked in the administrative offices of the school approving expenditures and assisted in the running of the school's operations. Her daughter, Roshall Frank, worked in the school's attendance reporting office. Anthony Mosley, the brother of Harold Wilcox, ran the food services at the school.
According to allegations contained in the 26 count indictment, Prepared Table Charter School received millions of dollars in federal funds under various programs and grants of the Department of Education. They also received federal funds through the Department of Agriculture's National School Lunch and Breakfast Programs. The defendants made claims for reimbursement under these federal programs after posing as an independent contractor with whom the School contracted to cater meals for the school. The defendants had checks issued in the name of this alleged catering service and then deposited the checks into the church bank account.
The defendants are also charged with misrepresenting the attendance figures for the school to the Texas Education Agency and fraudulently obtaining approximately $3 million from the State of Texas, which provided funding to the School, based upon those attendance figures.
Harold Wilcox and Anthony Mosley are ministers of the Greater Progressive Baptist Church and are accused of using the tax exempt status of the church to further their unlawful activity. The indictment charges the defendants with utilizing their positions in the school to obtain money by fraud, and with attempting to hide and disguise the true source of the misappropriated money by depositing the money into a church bank account. They are further charged with depositing this money into the church bank account with the intent to evade federal taxes. Once the misappropriated money was deposited into the church bank account, Harold Wilcox is accused of withdrawing cash from the account in amounts below $10,000 to avoid the requirement that the bank file a Currency Transaction Report on any cash transaction involving over $10,000.
The indictment charges all four defendants with conspiracy to commit wire and program fraud (Count 1), and three counts (Counts 2 - 4) of wire fraud involving a total of approximately $1.7 million, allegedly occurring between December 1999 and April 2001. Harold Wilcox is charged in three counts (Counts 5 - 7) with program fraud involving the transfer of more than $70,000 in school funds to the Church in August 2000, and January and February 2002. Harold Wilcox, his wife, Louvicy Wilcox, and Anthony Q. Mosley are accused of conspiring with one another to launder the money obtained by fraud for the purpose of concealing the source of the money and to evade taxes (Count 8). In furtherance of the conspiracy, Harold Wilcox is charged with four specific counts (Counts 9 - 12) of laundering approximately $97,000 in school fund between January and September 2000. Anthony Mosley is charged with six counts (Counts 13 - 18) of laundering an approximate total of $181,000 in school funds between April and June of 2002. The final eight counts of the indictment (Counts 19 - 26) accuse Harold Wilcox of structuring multiple financial transactions with money allegedly obtained by fraud to avoid reporting requirements during eight short intervals of time between September 1999 and March 2001.
The indictment also includes a number of forfeiture counts providing notice to all defendants of the government's intent to forfeit $3.3 million, the real estate property and all improvements located at 20 Thornhill Oaks, and 9100 Tidwell, and all the amounts alleged in each of the counts of the indictment. The indictment alleges that Harold Wilcox used approximately $51,000 in school funds for a down payment toward the purchase of the residence at 20 Thornhill Oaks, Houston, Texas. Both the Thornhill Oaks and Tidwell properties are titled in the name of Harold W. Wilcox.
This case was investigated by the Federal Bureau of Investigation, Internal Revenue Service Criminal Investigation Division, Department of Agriculture Office of Inspector General, Department of Education Office of Inspector General with the invaluable assistance of the Texas Education Agency. The case will be prosecuted by Assistant United States Attorney Melissa Annis.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov